            Office of Inspector General




                                    August 12, 2004

                                    ROBERT L. OTTO
                                    VICE PRESIDENT, CHIEF TECHNOLOGY OFFICER

                                    WILLIAM P. GALLIGAN
                                    ACTING VICE PRESIDENT, DELIVERY AND RETAIL

                                     SUBJECT:	 Management Advisory - Fiscal Years 2003 and
                                               2004 Protective Reviews Capping Report
                                               (Report Number FT-MA-04-003)

                                    This report summarizes the results of our self-initiated
                                    reviews of 117 judgmentally and randomly selected local
                                    Postal Service facilities for fiscal year (FY) 2003 (Project
                                    Number 03XR001FT000) and FY 2004 (Project Number
                                    04XR004FF000). These limited scope reviews were
                                    designed to provide Postal Service management with timely
                                    information regarding high-risk and/or sensitive activities at
                                    local facilities.

Results in Brief                    The review of 117 sites1 revealed that generally, internal
                                    controls were in place and functioning.2 However, facility
                                    personnel could strengthen controls in asset and
                                    postmaster accountability, revenue protection and expense
                                    minimization, employee and customer service, information
                                    systems security, and oversight by following established
                                    policies and procedures. Specifically:




1
  Ninety-six sites were reviewed in FY 2003 and 21 sites were examined in FY 2004.
2
  Controls tested included asset and postmaster accountability, employee and customer service, mail operations,
revenue protection and expense minimization, information systems security, oversight, and compliance with laws and
regulations.

    1735 N Lynn St. 

    Arlington, VA 22209-2020 

    (703) 248-2100 

    Fax: (703) 248-2256

Fiscal Years 2003 and 2004 Protective Reviews                                                      FT-MA-04-003
 Capping Report


                                     •	 Employees did not always adhere to prescribed cash,
                                        stamp, and money order accountability policies and
                                        procedures.

                                     •	 Postal Service employees did not always follow post
                                        office box rental, facility maintenance, and purchase
                                        card policies and procedures.

                                     •	 Employees did not always follow prescribed building
                                        safety and security and customer service policies.

                                     •	 Personnel did not always follow policies and procedures
                                        in the areas of computer access and workstation control.

                                     We issued 42 reports to local management (15 in FY 2003
                                     and 27 in FY 2004) and made 15 investigative referrals (8 in
                                     FY 2003 and 7 in FY 2004). This report summarizes the
                                     recurring issues identified at local Postal Service facilities3
                                     and provides four recommendations to assist the Postal
                                     Service in improving its operations.

                                     Management agreed with our recommendations and has
                                     taken or plans to take corrective actions that are responsive
                                     to our recommendations. Management’s comments, in their
                                     entirety, are included in Appendix C of this report.

Background                           In FY 2003, the Postal Service Office of Inspector General
                                     (OIG) initiated the protective review program. This program
                                     was designed to (1) fill the need for systematic OIG reviews
                                     of high-risk and/or sensitive activities at local Postal Service
                                     facilities; and (2) provide valuable and timely feedback
                                     regarding office and program management to local and
                                     headquarters management and the Board of Governors.
                                     This program addressed the following issues:

Asset and Postmaster 	               Post offices are the initial level where revenue is generated
Accountability	                      from Postal Service operations and include main offices,
                                     branches, and stations. Overall, the postmaster or
                                     installation head is responsible for collecting all receipts,
                                     accounting for all funds, and following all Postal Service
                                     regulations and guidance. The Postal Service had nearly
                                     $69 billion in operating revenue in FY 2003. Additionally, in
                                     FY 2003, the Postal Service issued over 200 million money

3
    Issues that occurred for at least 10 percent of the sites examined are considered recurring.




                                                              2
Fiscal Years 2003 and 2004 Protective Reviews                                           FT-MA-04-003
 Capping Report


                                   orders totaling about $29 billion, maintained vehicles valued
                                   at about $1.4 billion, and held capital personal property of
                                   over $4.6 billion.

Employee and                       As a service-oriented business, the Postal Service must
Customer Service                   maintain a safe and customer-friendly atmosphere in its
                                   37,600 offices, stations, branches, and contract postal units.
                                   These facilities operate as the focal point for businesses;
                                   therefore, security and safety are an integral part of doing
                                   business. The Postal Service achieves a safe environment
                                   for its customers and its 827,000 career and non-career
                                   employees through periodic checks of safety procedures
                                   and facilities.4

Mail Operations	                   The Postal Service uses various methods to achieve its
                                   delivery goals, primarily by land and domestic or
                                   international air transportation. The Postal Service delivers
                                   200 billion pieces of mail to over 140 million delivery points
                                   each year.

Revenue Protection                 The Postal Service had total revenue of nearly $69 billion
and Expense                        and total expenses of about $65 billion in FY 2003. Some
Minimization                       of the methods used to increase revenue include:

                                   •   Establishing special windows to handle Express Mail
                                       and package pickups.

                                   •   Renting post office boxes to individuals or companies to
                                       fulfill their needs.

                                   •   Providing self-service vending equipment as a way for
                                       customers to meet their mailing needs.

                                   •   Accepting passport applications, which involve splitting
                                       application fees with the Department of State.

                                   To control expenses, the Postal Service uses the
                                   International Merchant Purchase Authorization Card and the
                                   Voyager Card for supplies, capital items, or fuel and vehicle
                                   maintenance. The Postal Service spent nearly $570 million
                                   on these card purchases in FY 2003.



4
    Total offices and employees determined as of September 30, 2003.




                                                          3
Fiscal Years 2003 and 2004 Protective Reviews                                         FT-MA-04-003
 Capping Report



Information Systems           Information systems, computer equipment, and related
Security                      corporate data are vital Postal Service assets that require
                              protection appropriate to their value. Managers must
                              protect these assets against accidental or unauthorized use,
                              modification, disclosure, or destruction. They must also
                              ensure their security, reliability, integrity, continuity of
                              operations, and compliance with federal laws and
                              regulations. Postal Service business practices require
                              information to be managed as a corporate resource. To
                              accomplish this, organizations within the Postal Service
                              have developed many levels of computer support to
                              manage their business.

Oversight 	                   The Postal Service performs routine evaluations to measure
                              the effectiveness of the Postal Service Safety and Health
                              Program at each organizational level, ensure Occupational
                              Safety and Health Administration compliance, and promote
                              an overall model for an effective Safety and Health
                              Program.

Compliance With Laws          Local Postal Service facilities must comply with many
and Regulations               federal, state, and local laws and regulations. These
                              facilities are required to establish and maintain recycling
                              programs that promote a safe and healthy environment.
                              District offices are tasked with ensuring that facilities in their
                              jurisdiction adhere to clean air regulations. Local facility
                              personnel are required to monitor and report certain
                              monetary transactions when dollar thresholds are met and
                              when suspicious activity is suspected under the Bank
                              Secrecy Act.

Objectives, Scope,            The objectives of the reviews were to determine whether:
and Methodology
                              •	 Internal controls were adequate to ensure that
                                 transactions were properly recorded and assets were
                                 safeguarded from waste, fraud, abuse, unauthorized
                                 use, and misappropriation.

                              •	 Internal controls significant to financial management,
                                 operations, safety, security, and labor management were
                                 established and functioning.

                              •	 Facilities complied with applicable laws, regulations, and
                                 Postal Service requirements.



                                                  4
Fiscal Years 2003 and 2004 Protective Reviews                                                          FT-MA-04-003
 Capping Report



                                  We conducted fieldwork at 117 judgmentally selected sites.
                                  (See Appendix A for the sites visited.) Generally, the sites
                                  were selected based on:

                                  •    Requests from Postal Service management.
                                  •    Relevant issues identified by other sources.
                                  •    Relative office revenue level.

                                  We generally did not visit sites that had been reviewed as
                                  part of a financial installation audit within the past five years.
                                  Also, we coordinated our site selection with the Postal
                                  Inspection Service to ensure there were no ongoing
                                  investigations at the selected facilities. Although we did not
                                  perform all steps at all sites, we balanced our coverage to
                                  ensure controls were established and functioning Postal
                                  Service-wide. (See Appendix B for the areas that were
                                  covered at each location.)

                                  To accomplish our objectives, we interviewed Postal
                                  Service personnel, reviewed documentation, observed
                                  operations, reviewed safety and security procedures, and
                                  verified compliance with laws, regulations, and Postal
                                  Service requirements. In addition, we evaluated whether
                                  internal controls over financial reporting and safeguarding of
                                  assets were implemented and functioning as designed.

                                  The reviews were conducted from November 2002 to
                                  August 2004 in accordance with the President’s Council on
                                  Integrity and Efficiency Quality Standards for Inspections.
                                  We included such tests of internal controls as were
                                  considered necessary under the circumstances. At some
                                  sites, we used data from the Personal Property Accounting
                                  System, Vehicle Maintenance Accounting System, and
                                  various payroll systems. We performed limited testing of
                                  this information as part of our review. In addition, this data
                                  is tested annually as part of our financial statements audits.
                                  We discussed our conclusions and observations with
                                  appropriate management officials and included their
                                  comments, where appropriate. We issued 42 individual site
                                  reports to management.5


5
  We issued 15 reports in FY 2003 and 27 reports in FY 2004. For the other sites in which we did not release a
report, we verbally communicated identified issues to facility personnel at the exit conference. See Appendix A for a
listing of the reports issued.




                                                           5
Fiscal Years 2003 and 2004 Protective Reviews                                       FT-MA-04-003
 Capping Report




Prior Audit Coverage 	 The OIG has been responsible for conducting financial
                       installation audits since FY 2001. Before then, the Postal
                       Inspection Service performed these audits. The OIG had
                       not conducted financial installation audits at any of the
                       117 facilities before our protective review. Of the 117 sites
                       visited, the Postal Inspection Service did issue one report in
                       the past five years related to our objectives.6 The Postal
                       Inspection Service determined that, in most cases, internal
                       controls at this site were adequate; revenue was properly
                       collected, reported, and deposited; expenses were
                       reasonable and proper; and employees work time was
                       accurately recorded. Follow-up during our review found
                       internal controls to be generally effective, and no reportable
                       issues were identified related to revenue protection,
                       expense minimization, or payroll.

                              Two prior OIG reports assessed similar controls at multiple
                              Postal Service facilities:

                              •	 Fiscal Year 2002 Financial Installation Audit –
                                 Post Offices, Branches, and Stations, Report
                                 Number FF-AR-03-146, dated March 21, 2003. The
                                 report disclosed the results of testing at 109 statistically
                                 selected units. The report identified opportunities to
                                 improve internal controls and recommended
                                 management reinforce procedures for conducting and
                                 documenting accountability examinations, securing
                                 stamps and money orders, limiting the level of cash and
                                 stamp stock that can be maintained, and preparing
                                 deposits. The report also recommended management
                                 develop and issue guidance for use by the internal
                                 control group to analyze unit compliance with
                                 accountability procedures and coordinate results to
                                 reduce instances of noncompliance.

                              •	 Fiscal Year 2001 Financial Installation Audit –
                                 Post Offices, Branches, and Stations, Report Number
                                 FF-AR-02-324, dated July 26, 2002. The OIG reported
                                 management could strengthen its internal controls over
                                 stamps, cash, and money orders to reduce future losses.
                                 The audit determined employees did not always conduct


6




                                                 6
Fiscal Years 2003 and 2004 Protective Reviews                                     FT-MA-04-003
 Capping Report


                                  post office box mail volume checks and inventories,
                                  process collect on delivery mail in accordance with
                                  procedures,                        . The report
                                  recommended management reinforce the procedures for
                                  conducting counts of accountable paper and cash at
                                  installations using segmented inventory accountability.
                                  In addition, we made recommendations relating to stamp
                                  requisitions; accountability files; counts of vending
                                  machines; security over stamps, cash, and money
                                  orders; and post office box mail volume checks.

                              In addition, the OIG performed an audit of the Postal
                              Service’s Voyager Card program (Voyager Card
                              Control Weaknesses – National Analysis, Report Number
                              TD-AR-03-012, dated September 8, 2003). Employees use
                              the Voyager Card to fuel and maintain Postal Service
                              vehicles. The audit reported that from September 2000
                              to March 2002, the Postal Service incurred more than
                              $1.1 million in unnecessary costs because employees used
                              the card to purchase food and premium fuel contrary to
                              Postal Service policy. The audit also identified at least
                              $42 million in questionable charges. Further, managers
                              and supervisors did not properly reconcile transactions and
                              guidance provided to users did not properly address
                              segregation of duties for card reconciliation. Finally, the
                              OIG identified control weaknesses related to Voyager Card
                              personal identification number use at two Postal Service
                              districts. The OIG recommended Postal Service officials
                              provide nationwide guidance, policy, training, support, and
                              oversight necessary to protect the program from improper,
                              fraudulent, or questionable purchases.

Cash, Stamps, and             The protective reviews examined asset and postmaster
Money Orders                  accountability at 36 locations. Generally, internal controls
                              over cash, stamps, money orders, and property were in
                              place and functioning as prescribed; however, there were
                              opportunities for improvement in the areas of cash, stamp,
                              and money order accountability. Although the Postal
                              Service has prescribed sufficient controls over cash,
                              stamps, and money orders, employees did not adhere to
                              these procedures because other duties took priority. As a
                              result, there is an increased risk of loss of Postal Service
                              assets and accountable property. Specifically:




                                                7
Fiscal Years 2003 and 2004 Protective Reviews                                        FT-MA-04-003
 Capping Report


                                •	 Employees did not always conduct counts of cash
                                   reserves, blank money order stock, unit reserves, and
                                   vending credits at proper frequencies at 13 sites visited,
                                   or 36 percent.7 For example, at 11 facilities, the cash
                                   retained reserves were not counted every two weeks.

                                •	 The cash retained by window clerks did not match
                                   the amount reported on the Postal Service (PS)
                                   Form 1412, Daily Financial Report, at ten sites visited,
                                   or 28 percent.8

                                •	 The unit reserve stamp stock did not agree with the
                                   account identifier code (AIC) 853 amount recorded
                                   on that day’s PS Form 1412 at 10 sites visited, or
                                   28 percent.9

                                •	 The retail floor stock inventory did not agree with the
                                   account identifier code (AIC) 853 amount recorded
                                   on the daily financial report at 13 sites visited, or
                                   36 percent.10

                                •	 Money orders in the clerk’s possession were not in
                                   sequential serial number order at six sites visited, or
                                   17 percent.11


                                •

                                •	 Witnesses had not signed the PS Form 3997, Duplicate
                                   Key Envelopes, at five sites visited, or 14 percent.
                                   Duplicate Key Envelopes are used to maintain spare
                                   keys and safe combinations in a secure location.12

                                These issues were also identified during our FY 2003
                                financial installation audits of statistically selected post
                                offices, branches, and stations (Fiscal Year 2003 Financial
                                Installation Audit – Post Offices, Branches, and Stations,
                                (Report Number FF-AR-04-247, dated August 4, 2004).
                                These audits were conducted in support of the audit of the
                                Postal Service financial statements. Because
7
  Handbook F-1, Post Office Accounting Procedures, Section 487.
8
  Handbook F-1, Post Office Accounting Procedures, Section 486.
9
  Handbook F-1, Post Office Accounting Procedures, Section 487.
10
   Handbook F-1, Post Office Accounting Procedures, Section 487.
11
   Handbook F-1, Post Office Accounting Procedures, Sections 429 and 742.
12
   Handbook F-1, Post Office Accounting Procedures, Section 372.




                                                       8
Fiscal Years 2003 and 2004 Protective Reviews                                                          FT-MA-04-003
 Capping Report


                                  recommendations were made in that report to address
                                  similar issues, we will not make any further
                                  recommendations for corrective action in this report.

Box Rental,                       The protective reviews examined revenue protection and
Maintenance, and                  expense minimization at 35 locations. Generally, internal
Purchase Cards                    controls were in place and functioning as prescribed to help
                                  Post Office personnel maximize their revenue and reduce
                                  and control expenses. However, there were opportunities
                                  for improvements in the areas of box rentals, facility
                                  maintenance, and purchase cards. These opportunities
                                  existed because personnel did not always follow prescribed
                                  policy. As a result, opportunities to maximize revenue and
                                  decrease expenses were not always taken. Specifically:

                                  •	 The PS Forms 1532, Semiannual Check of Overflow
                                     Mail, was not used at seven sites visited, or 20 percent,
                                     to determine whether customers needed larger post
                                     office boxes.13

                                  •	 Installation heads had not conducted housekeeping
                                     inspections and determined whether the maintenance
                                     program was within the yearly allocated budget at
                                     five sites, or 14 percent.14

                                  •	 Postal Service employees were not always following
                                     Voyager Card policies and procedures.15 Specifically:

                                       −	 Employees did not always reconcile transactions at
                                          five sites, or 14 percent.

                                       − Personal identification number listings were not
                                         current at five sites, or 14 percent.16

                                       −	 Transactions were not always supported by receipts
                                          at four sites, or 11 percent.

                                  The OIG issued audit Report Number TD-AR-03-012, dated
                                  September 8, 2003, Voyager Card Controls-National
                                  Analysis, which disclosed control weaknesses related to

13
   Postal Operations Manual, Section 841. 

14
   Handbook MS-47, Housekeeping Postal Facilities, Section 3.1.4. 

15
   Postal Site Fleet Card Guide. 

16
   Personal Identification Numbers (PIN) were assigned to inactive employees, the Master PIN List did not include all
current employees, and employees were assigned multiple PINs.




                                                           9
Fiscal Years 2003 and 2004 Protective Reviews                                      FT-MA-04-003
 Capping Report


                              reconciliations, segregation of duties, personal identification
                              numbers, and card protection. In that report, we
                              recommended the Vice Presidents, Supply Management
                              and Delivery and Retail, work together to provide nationwide
                              guidance, internal control policy, training, support, and
                              oversight necessary to ensure the Postal Service Voyager
                              Card program is protected from improper, fraudulent, or
                              questionable purchases. Consequently, we will not make
                              any further recommendations for corrective action at this
                              time.

Recommendation 	              We recommend the Acting Vice President, Delivery and
                              Retail:

                              1. Reinforce procedures to evaluate overflow mail
                                 periodically to ensure that the Postal Service receives
                                 appropriate revenue.

Management’s                  Management agreed with the recommendation and is
Comments                      developing a training module that will cover post office box
                              revenue protection and Domestic Mail Manual and Postal
                              Operations Manual compliance. This training module will
                              also address the requirement pertaining to semiannual
                              audits of post office box overflow and is scheduled to be
                              operational in quarter 1 of FY 2005.

                              Management will also issue a letter by September 30, 2004,
                              to all area Marketing and Retail managers pertaining to post
                              office box revenue protection in general, and part of the
                              instructions will discuss the PS Form 1532.

Recommendation                2. Reinforce procedures to review the maintenance budget
                                 periodically to ensure that expenses are controlled.

Management’s                  Management agreed with the recommendation.
Comments                      Management will issue a memo by the beginning of
                              FY 2005, reminding postmasters and field staff of their
                              responsibilities for conducting housekeeping inspections
                              and reviewing current maintenance budget performance
                              and future budget needs in order to maintain the facility and
                              control expenses.




                                                 10
Fiscal Years 2003 and 2004 Protective Reviews                                                          FT-MA-04-003
 Capping Report




Evaluation of                     Management’s comments are responsive to
Management’s                      recommendations 1 and 2, and actions planned should
Comments                          correct the issues identified in the finding.

Building Safety and               The protective reviews examined employee and customer
Security and                      service at 65 locations. Generally, internal controls were in
Customer Service                  place and functioning enough to maintain a safe and
                                  customer-friendly environment. However, there were
                                  opportunities for improvement surrounding building safety
                                  and security and customer service. This occurred because
                                  personnel were not always following prescribed policies and
                                  procedures. As a result, employee and customer safety and
                                  customer satisfaction could be compromised, which could
                                  lead to unnecessary costs. Specifically:

                                  •	 Building access key inventories were not properly
                                     controlled at seven sites, or 11 percent.17

                                  •	 Emergency contact telephone numbers were not placed
                                     by each telephone at ten sites visited, or 16 percent.18

                                  •	 Customer Complaint Control Logs19 were not maintained
                                     at 14 sites visited, or 22 percent, and consumer
                                     comment forms, or the Notice 4314-C, We Want To
                                     Know Notice, were not available at seven sites, or
                                     11 percent.20

                                  •	 The interior and/or exterior of seven Postal Service
                                     facilities, or 11 percent, needed some form of repair or
                                     maintenance.21

Recommendation	                   We recommend the Acting Vice President, Delivery and
                                  Retail:

                                  3. Reinforce the need to follow prescribed procedures
                                     related to building access key inventory, emergency


17
   Handbook PO-208, Retail Operations – Focus on Retail, Section 355.
18
   Handbook PO-208, Retail Operations – Focus on Retail, Section 35 and Handbook EL-801, Supervisor’s Safety
Handbook, Section 8-5.
19
   Customers have three ways of registering concerns with the Postal Service: through the Internet, by phone, or in
person at the local facility.
20
   Postal Operations Manual, Section 16, and Postal Bulletin 22075.
21
   Postal Operations Manual, Section 125 and Handbook EL-801, Supervisor’s Safety Handbook, Section 8-10.




                                                          11
Fiscal Years 2003 and 2004 Protective Reviews                                            FT-MA-04-003
 Capping Report



                                       phone contact information, customer comments, and
                                       facility appearance.

Management’s                       Management agreed with the recommendation and plans to
Comments                           issue instructions reminding the field of their responsibilities
                                   for controlling building key access inventory, emergency
                                   phone contact information, and the customer contact log. A
                                   separate letter will be sent out on the responsibilities for
                                   maintaining high standards for facility appearance. The
                                   instructions and letter will be issued at the beginning of
                                   FY 2005.

Evaluation of                      Management’s comments are responsive to the
Management’s                       recommendation, and actions planned should correct the
Comments                           issues identified in the finding.

Information Systems                The protective reviews examined information system
Security                           security at 48 facilities. Generally, internal controls were in
                                   place and functioning as prescribed for protecting systems
                                   and data appropriate to their value. However, because
                                   personnel were not always following prescribed policies,
                                   there were opportunities for improvement in the areas of
                                   computer access and workstation control. As a result, there
                                   is an increased risk of loss of Postal Service data or
                                   unauthorized access to Postal Service computer systems.

                                   •	 Functional managers did not perform semiannual
                                      reviews of employee access to information systems at
                                      five sites, or 10 percent.22

                                   •	 Workstations left unattended and signed-on did not time
                                      out within 15 minutes, as required, at eight sites, or
                                      17 percent.23

Recommendation 	                   We recommend the Vice President, Chief Technology
                                   Officer:

                                   4. Reinforce the need to follow prescribed procedures for
                                      conducting semiannual reviews of employee access and
                                      ensuring unattended workstations are secured.


22
     Handbook AS 805, Information Security, Section 9-4.
23
     Handbook AS 805, Information Security, Section 9-7 and 10-5.




                                                           12
Fiscal Years 2003 and 2004 Protective Reviews                                    FT-MA-04-003
 Capping Report




Management’s                  Management agreed with the recommendation and has
Comments                      implemented corrective actions. Managers at the five sites
                              that were not performing semiannual reviews of employees'
                              computer access were reminded in July 2004 of their
                              responsibility to implement a process to ensure computer
                              access was appropriately reviewed in accordance with
                              Postal Service policy AS-805, Information Security.

                              Also, the unattended workstations have been secured by
                              implementing a 15 minute timeout as part of the Advanced
                              Computing Environment (ACE) standard configuration. All
                              ACE workstations are now set to timeout in 15 minutes
                              unless they have an exception from the Corporate
                              Information Security Office or the Chief Technology Officer.

Evaluation of                 Management’s comments are responsive to the
Management’s                  recommendation, and actions taken should correct the
Comments                      issues identified in the finding.

                              We appreciate the cooperation and courtesies provided by
                              your staff during the review. If you have any questions or
                              need additional information, please contact John E. Cihota,
                              Director, Financial Statements, or me at (703) 248-2300.




                              Colleen A. McAntee
                              Deputy Assistant Inspector General
                               for Financial Management

                              Attachments




                                                13
Fiscal Years 2003 and 2004 Protective Reviews                  FT-MA-04-003
 Capping Report



                              cc: 	 Richard J. Strasser, Jr.
                                    Mary Anne Gibbons
                                    John A. Rapp
                                    Sylvester Black
                                    William J. Brown
                                    Jo Ann Feindt
                                    Alfred Iniguez
                                    Jerry D. Lane
                                    Alexander Lazaroff
                                    George L. Lopez
                                    Lynn B. Malcolm
                                    David L. Solomon
                                    Jon M. Steele
                                    Keith Strange
                                    Jon T. Stratton
                                    Gladys E. Zamora
                                    Margaret A. Weir
                                    Peter Myo Khin
                                    Steven R. Phelps




                                                 14
        Fiscal Years 2003 and 2004 Protective Reviews                                         FT-MA-04-003
         Capping Report


                      APPENDIX A. SITES VISITED (SORTED BY STATE)

                                            Finance                                    ZIP
State               Unit Name               Number      Unit    CAG          City     Code    Report Number
 CA     Azusa Main Office                   050438      0715     E    Azusa           91702   PR-MA-03-014
 CA     Costa Mesa Main Office              051818      0330     C    Costa Mesa      92628   PR-MA-03-003
 CA     Irvine Main Office                  053710      0250     B    Irvine          92619
 CA     Menlo Park Main Office              054866      0140     C    Menlo Park      94025
 CA     San Carlos Main Office              056756      0230     D    San Carlos      94070   PR-MA-04-001
 CA     West Covina Main Office             058343      0870     D    West Covina     91793
 CA     Woodside Plaza Station              056378      0212     C    Redwood City    94061   PR-MA-03-002
 CO     Castle Rock Main Office             071440      0154     E    Castle Rock     80104
 CO     Centennial Branch                   075580      0268     C    Littleton       80121   PR-MA-04-004
 CO     Columbine Hills Post Office         075580      0272     C    Littleton       80123
 CO     Englewood Post Office               072880      0181     B    Englewood       80112   PR-MA-04-011
 CO     Greenwood Village Branch            072880      0181     B    Englewood       80112   PR-MA-04-016
 CT     Uncasville Post Office              088330      0382     F    Uncasville      06382   PR-MA-03-015
 DC     Farragut Station                    105000      0233     A    Washington      20033
 DE     Dover Main Office                   091760      0901     C    Dover           19901
 DE     Greenwood Main Office               092640      0950     F    Greenwood       19950
 FL     Carrollwood Branch                  118925      0618     A    Tampa           33618   PR-MA-04-006
 FL     Tampa Processing and                118926      0634     A    Tampa           33630
        Distribution Center
FL      Temple Terrace Post Office          118925      0617    A     Tampa           33617
GA      Alps Road Post Office               120418      0402    C     Athens          30604
GA      Central City Finance Office         120440      0060    A     Atlanta         30302
GA      Chatsworth Main Office              121606      0705    E     Chatsworth      30705   PR-MA-03-013
GA      Midtown Station                     120440      0085    A     Atlanta         30309
GA      Norcross Main Office                126391      0293    B     Norcross        30071
GA      Rome Post Office                    127557      0500    D     Rome            30161   PR-MA-03-009
IL      Bethalto Post Office                160702      0410    F     Bethalto        62010   PR-MA-04-024
IL      Geneva Post Office                  163012      0134    D     Geneva          60134
IL      Joliet Downtown Station             163966      0431    C     Joliet          60436   PR-MA-04-005
IL      North Chicago Main Office           165736      0064    D     North Chicago   60064   PR-MA-04-021
IL      O'Fallon Main Office                165826      0569    E     O'Fallon        62269   PR-MA-04-007
IL      Station E Post Office               161542      0012    A     Chicago         60601
IL      Wacker Drive Finance Office         161542      0063    A     Chicago         60606
LA      Bossier City Main Office            211070      0671    D     Bossier City    71111
MA      Andover Main Office                 240153      0810    C     Andover         01810
MA      Blackstone Main Office              240731      0504    G     Blackstone      01504   PR-MA-04-013
MA      Uxbridge Main Office                248296      0569    G     Uxbridge        01569   PR-MA-04-012
MA      Woburn Center Station               249588      0801    C     Woburn          01801   PR-MA-03-001
MD      Bel Air Main Office                 230504      0214    D     Bel Air         21014   PR-MA-03-008
MD      Bethesda Main Office                230675      0814    C     Bethesda        20814
MD      Bowie Post Office                   230936      0715    D     Bowie           20715   PR-MA-03-010
MD      Chesapeake Beach Main Office        231710      0732    G     Chesapeake      20732   PR-MA-04-027
MD      Clifton-East End Post Office        230378      0011    A     Baltimore       21213




                                                           15
        Fiscal Years 2003 and 2004 Protective Reviews                                         FT-MA-04-003
         Capping Report


                                            Finance                                    ZIP
State              Unit Name                Number      Unit    CAG        City       Code    Report Number
MD      Colora Main Office                  232070      0917     J    Colora          21917   PR-MA-03-006
MD      Cresaptown Branch                   232394      0514     D    Cumberland      21502   PR-MA-04-015
MD      District Heights/Forestville Post   231420      0747     C    Forestville     20747
        Office
MD      Edgewater Main Office               232916      0237    F     Edgewater       21037   PR-MA-04-017
MD      Ellicott City Main Office           233024      0243    D     Ellicott City   21043
MD      Leonardtown Post Office             235184      0650    C     Leonardtown     20650   PR-MA-04-026
MD      North College Park Branch           232052      0741    D     College Park    20740
MD      Owings Mills Main Office            236912      0539    C     Owings Mills    21117   PR-MA-03-011
MD      Upper Marlboro Main Office          239234      0772    C     Upper           20772   PR-MA-03-004
                                                                      Marlboro
MN      Apple Valley Post Office            268360      0004     A    St Paul         55124
MN      Burnsville Post Office              268490      0337     C    Burnsville      55337
MN      Cliff Lake Finance Office           268360      0030     A    St Paul         55122
MN      Eagan Accounting Service            266369                    Eagan           55121
        Center Imprest Fund
MN      Eagan Accounting Service            266369                    Eagan           55121
        Center Imprest Fund
MO      Columbia -Tiger Station             281680      0179     C    Columbia        65201
MO      Contract Station                    280756      9014     D    Blue Springs    64014
MO      Fenton Branch                       282688      0626     C    Fenton          63026
MO      Rolla Post Office                   286936      0710     E    Rolla           65401
MO      West County Annex Post Office       287140      0282     A    St. Louis       63146
NC      Century Station                     366352      0112     A    Raleigh         27602
NC      Hillsborough Post Office            363640      0278     D    Hillsborough    27278   PR-MA-04-025
NJ      Hoboken Main Office                 333675      7069     D    Hoboken         07030
OK      Ardmore Main Office                 390363      0408     E    Ardmore         73401
OK      Mead Post Office                    395390      0474     K    Mead            73449
OK      Seminole Main Office                397370      0440     F    Seminole        74868
OR      Bend Main Office                    400736      9055     C    Bend            97701
OR      Milwaukie Branch                    406784      0022     A    Portland        97222
OR      Oak Grove Branch                    406784      0028     A    Portland        97268
OR      Salem Main Office                   407392      0501     B    Salem           97301
PA      Butler Post Office                  411068      0019     D    Butler          16001   PR-MA-04-008
PA      Coraopolis Post Office              411660      0226     D    Coraopolis      15108   PR-MA-04-003
PA      Corliss Station                     416608      0004     A    Pittsburgh      15204
PA      Crafton Branch                      416608      0005     A    Pittsburgh      15205
PA      East Liberty Station                416608      0006     A    Pittsburgh      15206
PA      Hazelwood Station                   416608      0007     A    Pittsburgh      15207   PR-MA-03-005
PA      Homewood Station                    416608      0008     A    Pittsburgh      15208
PA      Johnstown Post Office               414080      0916     C    Johnstown       15901   PR-MA-04-009
PA      Wycombe Post Office                 419448      0080     J    Wycombe         18980
TN      Cleveland Main Office               471704      0311     C    Cleveland       37311   PR-MA-04-002
TX      Arlington Main Office               480335      0901     B    Arlington       76010
TX      Belmont Finance Office              482270      0206     A    Dallas          75206
TX      Beverly Hills Post Office           482270      0211     A    Dallas          75211




                                                           16
        Fiscal Years 2003 and 2004 Protective Reviews                                          FT-MA-04-003
         Capping Report


                                            Finance                                     ZIP
State               Unit Name               Number      Unit    CAG        City        Code    Report Number
 TX     Denton Main Office                  482390      0204     C    Denton           76201
 TX     Downtown Fort Worth Station         483220      0101     A    Fort Worth       76102
 TX     Forney Main Office                  483185      0126     F    Forney           75126   PR-MA-04-022
 TX     Inwood Station                      482270      0209     A    Dallas           75209
 TX     Lakewood Station                    482270      0214     A    Dallas           75214
 TX     Plaza of the Americas Contract      482270      0262     A    Dallas           75201
        Station
TX      Richardson Post Office              487555      0080    B     Richardson       75080
TX      San Angelo Main Office              487975      0902    C     San Angelo       76903
VA      Amherst Main Office                 510204      1521    F     Amherst          24521
VA      Arlington Main Office               510306      0130    B     Arlington        22210
VA      Buchannan Main Office               511224      1066    H     Buchannan        24066
VA      Cloverdale Main Office              511980      1077    G     Cloverdale       24077
VA      Community Branch                    510114      0103    B     Alexandria       22306
VA      Courthouse Station                  510306      0133    B     Arlington        22216
VA      Crystal City Station                510306      0134    B     Arlington        22215
VA      Fredericksburg Post Office          513408      0404    B     Fredericksburg   22401
VA      Fulks Run Main Office               513456      0729    K     Fulks Run        22830
VA      Ladysmith Post Office               514962      0507    H     Ladysmith        22501
VA      Manassas Downtown Station           515586      0305    C     Manassas         20111   PR-MA-04-023
VA      Mappsville Main Office              515622      0407    K     Mappsville       23407
VA      Martinsville Main Office            515652      0362    D     Martinsville     24112   PR-MA-04-014
VA      Mechanicsville Post Office          515772      0611    D     Mechanicsville   23111
VA      Mendota Main Office                 515808      1270    K     Mendota          24270   PR-MA-04-019
VA      Northside Richmond Post Office      517650      0105    A     Richmond         23222   PR-MA-04-010
VA      Oak Hill Branch                     514212      0197    C     Herndon          20171   PR-MA-04-020
VA      Preston King Station                510306      0138    B     Arlington        22205
VA      Rosslyn Station                     510306      0139    B     Arlington        22209
VA      Salem Main Office                   517968      0367    C     Salem            24153
VA      Shirlington Station                 510306      0140    B     Arlington        22206
VA      Southside Richmond Post Office      517650      0120    A     Richmond         23224   PR-MA-03-012
VA      Stafford Post Office                518496      0554    E     Stafford         22554   PR-MA-03-007
VA      Windsor Main Office                 519810      0487    G     Windsor          23487   PR-MA-04-018
WV      Worthington Main Office             558898      0919    K     Worthington      26591




                                                           17
      Fiscal Years 2003 and 2004 Protective Reviews                                                                                    FT-MA-04-003
       Capping Report


                APPENDIX B. SECTIONS TESTED (SORTED BY STATE)




                                                                              Mail Operations



                                                                                                Protection and




                                                                                                                                           With Laws and
                                         Accountability


                                                          Employee and




                                                                                                 Minimization




                                                                                                                                            Regulations
                                                                                                                                            Compliance
                                                                                                                 Information




                                                                                                                               Oversight
                                                           Customer




                                                                                                   Revenue

                                                                                                   Expense




                                                                                                                   Systems
                                                                                                                   Security
                                                            Service
State             Unit Name
 CA      Azusa Main Office                                                                                           X         X
 CA      Costa Mesa Main Office                                                                      X               X         X               X
 CA      Irvine Main Office                                   X               X                      X               X
 CA      Menlo Park Main Office                                                                                      X         X
 CA      San Carlos Main Office                                                                      X                         X
 CA      West Covina Main Office                              X               X
 CA      Woodside Plaza Station                               X               X                      X
 CO      Castle Rock Main Office                              X                                                      X
 CO      Centennial Branch                                    X                                                                X
 CO      Columbine Hills Post Office                          X               X                      X
 CO      Englewood Post Office                                X               X                                      X         X               X
 CO      Greenwood Village Branch        X                    X                                                                X
 CT      Uncasville Post Office                               X                                      X
 DC      Farragut Station                                                     X                      X               X         X               X
 DE      Dover Main Office                                                                                           X         X
 DE      Greenwood Main Office                                                                                       X         X
 FL      Carrollwood Branch              X                                                           X
 FL      Tampa Processing and            X                                                           X
         Distribution Center
 FL      Temple Terrace Post Office                           X               X                                                                X
 GA      Alps Road Post Office                                                X                                                X
 GA      Central City Finance Office                          X               X                                      X
 GA      Chatsworth Main Office          X                                                           X
 GA      Midtown Station                                      X               X                                                X
 GA      Norcross Main Office            X                                                                                     X
 GA      Rome Post Office                X                                                           X
 IL      Bethalto Post Office            X                    X
 IL      Geneva Post Office                                                   X                      X
 IL      Joliet Downtown Station         X                                    X
 IL      North Chicago Main Office       X                    X
 IL      O'Fallon Main Office                                                                                        X         X
 IL      Station E Post Office                                X                                      X               X         X               X
 IL      Wacker Drive Finance                                 X               X                                      X         X               X
         Office
LA       Bossier City Main Office                                                                                    X         X
MA       Andover Main Office                                                  X                                      X         X               X
MA       Blackstone Main Office                               X               X                                                X
MA       Uxbridge Main Office                                 X               X                                      X




                                                                         18
     Fiscal Years 2003 and 2004 Protective Reviews                                                                           FT-MA-04-003
      Capping Report




                                                                                      Protection and




                                                                                                                                 With Laws and
                                        Accountability


                                                         Employee and




                                                                                       Minimization




                                                                                                                                  Regulations
                                                                                                                                  Compliance
                                                                                                       Information
                                                                         Operations




                                                                                                                     Oversight
                                                          Customer




                                                                                         Revenue

                                                                                         Expense




                                                                                                         Systems
                                                                                                         Security
                                                           Service

                                                                           Mail
State             Unit Name
 MA     Woburn Center Station           X                    X
 MD     Bel Air Main Office                                  X                                             X
 MD     Bethesda Main Office                                                 X             X               X
 MD     Bowie Post Office               X                                                                            X
 MD     Chesapeake Beach Main           X                    X
        Office
MD      Clifton-East End Post                                X                                                       X
        Office
MD      Colora Main Office                                   X                                             X
MD      Cresaptown Branch               X                    X               X
MD      District Heights/Forestville                         X               X                             X         X
        Post Office
MD      Edgewater Main Office           X                    X
MD      Ellicott City Main Office       X                                                  X
MD      Leonardtown Post Office         X                    X               X
MD      North College Park Branch                                                                          X         X
MD      Owings Mills Main Office                             X                                             X
MD      Upper Marlboro Main Office                           X               X                                       X
MN      Apple Valley Post Office                             X               X                             X         X               X
MN      Burnsville Post Office                               X               X                             X         X               X
MN      Cliff Lake Finance Office                                                                          X         X               X
MN      Eagan Information               X
        Technology and Accounting
        Service Center Imprest
        Fund
MN      Eagan Information               X
        Technology and Accounting
        Service Center Imprest
        Fund
MN      Columbia -Tiger Station                                              X
MO      Contract Station                                     X               X
MO      Fenton Branch                                        X                                             X
MO      Rolla Post Office                                                    X             X
MO      West County Annex Post                               X               X                                       X
        Office
MO      Century Station                                      X               X
NC      Hillsborough Post Office        X
NC      Hoboken Main Office                                  X               X             X
NJ      Ardmore Main Office             X                                                                  X
OK      Mead Post Office                                                                                   X         X
OK      Seminole Main Office                                 X               X
OK      Bend Main Office                X                                                  X




                                                                        19
      Fiscal Years 2003 and 2004 Protective Reviews                                                                              FT-MA-04-003
       Capping Report




                                                                                      Protection and




                                                                                                                                     With Laws and
                                        Accountability


                                                         Employee and




                                                                                       Minimization




                                                                                                                                      Regulations
                                                                                                                                      Compliance
                                                                                                       Information
                                                                         Operations




                                                                                                                     Oversight
                                                          Customer




                                                                                         Revenue

                                                                                         Expense




                                                                                                         Systems
                                                                                                         Security
                                                           Service


                                                                           Mail
State             Unit Name
 OR      Milwaukie Branch                                     X              X              X               X
 OR      Oak Grove Branch                                     X              X                              X
 OR      Salem Main Office                                    X              X              X                              X
 PA      Butler Post Office                                   X                             X
 PA      Coraopolis Post Office                  X                                          X                                              X
 PA      Corliss Station                                                     X                                                             X
 PA      Crafton Branch                                       X              X                              X
 PA      East Liberty Station                                                X                              X              X               X
 PA      Hazelwood Station                                    X              X              X               X              X               X
 PA      Homewood Station                        X            X              X              X               X              X               X
 PA      Johnstown Post Office                                X                             X
 PA      Wycombe Post Office                                                                X               X
 TN      Cleveland Main Office                   X                                          X
 TX      Arlington Main Office                   X                                          X
 TX      Belmont Finance Office                               X              X                              X              X               X
 TX      Beverly Hills Post Office               X            X              X              X
 TX      Denton Main Office                      X                           X
 TX      Downtown Fort Worth                                                                X                              X
         Station
 TX      Forney Main Office                      X            X              X
 TX      Inwood Station                                                      X                              X              X               X
 TX      Lakewood Station                        X                                          X
 TX      Plaza Of The Americas                                X              X                              X              X               X
         Contract Station
 TX      Richardson Post Office                  X            X              X                                                             X
 TX      San Angelo Main Office                                              X                                             X
 VA      Amherst Main Office                                                                                X              X
 VA      Arlington Main Office                                X              X              X               X              X               X
 VA      Buchannan Main Office                                                                              X              X
 VA      Cloverdale Main Office                               X                                                            X
 VA      Community Branch                        X            X
 VA      Courthouse Station                                                                 X               X              X               X
 VA      Crystal City Station                                 X              X                              X              X
 VA      Fredericksburg Post Office                           X                                                            X
 VA      Fulks Run Main Office                                X              X
 VA      Ladysmith Post Office                   X                                                                         X
 VA      Manassas Downtown                       X            X              X
         Station
 VA      Mappsville Main Office                               X              X
 VA      Martinsville Main Office                X            X
 VA      Mechanicsville Post Office              X                                                                         X




                                                                        20
      Fiscal Years 2003 and 2004 Protective Reviews                                                                                     FT-MA-04-003
       Capping Report




                                                                           Mail Operations



                                                                                             Protection and




                                                                                                                                            With Laws and
                                          Accountability


                                                           Employee and




                                                                                              Minimization




                                                                                                                                             Regulations
                                                                                                                                             Compliance
                                                                                                              Information




                                                                                                                            Oversight
                                                            Customer




                                                                                                Revenue

                                                                                                Expense




                                                                                                                Systems
                                                                                                                Security
                                                             Service
State               Unit Name
 VA        Mendota Main Office                                  X                     X
 VA        Northside Richmond Post                                                                 X               X
           Office
 VA        Oak Hill Branch                         X            X
 VA        Preston King Station                                                       X            X               X              X               X
 VA        Rosslyn Station                                      X                     X                                           X
 VA        Salem Main Office                                    X                                                                 X
 VA        Shirlington Station                                  X                     X                            X              X               X
 VA        Southside Richmond Post                                                                                 X              X
           Office
VA         Stafford Post Office                    X                                                                              X
VA         Windsor Main Office                     X            X
WV         Worthington Main Office                                                                                X             X
           Total                          3624                  65                56              35              48            54               22




      24
        The total includes two imprest funds that were examined at the Eagan Information Technology and Accounting
      Service Center.




                                                                          21
Fiscal Years 2003 and 2004 Protective Reviews             FT-MA-04-003
 Capping Report


                        APPENDIX C. MANAGEMENT’S COMMENTS 





                                                22
Fiscal Years 2003 and 2004 Protective Reviews         FT-MA-04-003
 Capping Report




                                                23

